No.
C3

IN THE

FILED
JUL 1H 2020

SUPREME COURT OF THE UNITED STATES

SUPREM°FCOUR9.LnRK

TVl^iK) l|j. Sq(\o[p CSod

— PETITIONER

(Your Name)

vs.
Ohio

Con rf

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

Cour-f

__________________________

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Austin

tO.

£andfftf>n

(Your Name)

25DD S, A\m

innA

(Address)

Co rex fl-loA , Ohio
(City, State, Zip Code)
&

(Phone Number)

LiHo(iLl

QUESTIONS PRESENTED

1. Whether this present petition should be liberally construed by this
court as a petition for Writ of Mandamus to the court with directions,
or as an original request for a Writ of Habeas Corpus.

2.Whether this court should literally contrue the present petitionsas
a request under Gondeck V. Pan American World Airways, Inc., 382 U.S
25 (1965), and grant relief accordingly, where Justin W. Sanderson stands
alone in not receiving relief from a void judgement of conviction.

3.Whether there can be a finality of a judgement of conviction rendered
against a criminal defendant, where the criminal court lacked subject matter
jurisdiction to render the judgement of conviction against the criminal
defendant.

i

LIST OF PARTIES

All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

JURISDICTION

./

The Ohio Supreme Court dismissed petition of Habeas Corpus on July 7,2020.
See Appendix A.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
J^sSin W. Sanderson's 5th,6, 8th, and 14th constitutional
amendments have been and are now -being violated.
i-oubcicutionai

STATEMENT OF THE CASE
Montgomery County Common Pleas Court, Trail court case #
2017-CR-2588 lacking any subject matter jurisdiction,
because there was no firsjtj filed complaint ever? sentenced
petitioner to 43 years in the Ohio prison system without
jurisdiction to do so.
The trial court sentenced me case# 2017-CR-2588 minus subject
matter jurisdiction. I petitioned to the Ohio Supreme Court for the w;. 1
Writ of Habeaus.With total disregardmy petition was dismissed or* U.e <■!,%/
on the day and date reference Appendix A. See Appendix A

REASON(S) FOR GRANTING THE PETITION
U.S.S CT. RULE 10 (C): A state court or a United States
court of appeals has decided an important question of
federal law that has not been, but should be settled by
this Court, or has decided an important federal question
in a way that conflicts with relevant decicions of this
court.

i

<;

.1

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

y"S m

Date:

Xlu. (3f

